JAMES K. GREEN, P.A.
LAWYERS

JAMES K. GREEN
NINA M. ZOLLO
ANNE F. O’BERRY
NANCY F. UDELL, OF COUNSEL

SUITE 1650, ESPERANTE’
222 LAKEVIEW AVENUE
WEST PALM BEACH,
FLORIDA 33401
561.659.2029
FACSIMILE 561.655.1357

March 22, 2021
Clerk of the Court
Supreme Court of the United States
1 First Street, N.E.
Washington, DC 20543
Re:

Case No. 20-1179, William W. Cole, Jr. vs. Lori Patton, as Chapter 7
Trustee; PRN Real Estate and Investments, Ltd; and Nancy Rossman

Greetings:
Petitioner hereby files his Supplemental Index which includes the Final Judgment
dated March 1, 2021 entered for the Defendant and Debtor, William W. Cole, Jr.,
and against the Plaintiff, PRN Real Estate Investments, Ltd. and Memorandum
Opinion stating:
PRN has not proven Cole fraudulently made false oaths regarding
his homestead. Take the statement in the schedules that the Improved
Land and Unimproved Land were two parcels. Although PRN argues
the parcels previously were contiguous, when Cole filed this
bankruptcy case, the statement was true. Cole could not create a
false impression by listing his homestead as two parcels because, on
the petition date, they legally were divided into two parcels.
However, to prevent any misunderstanding by the Trustee, on the
day Cole filed this bankruptcy case, his lawyer contacted the
Trustee, told her they needed to meet about the case, and asked her
to bring her counsel along. During that initial meeting, which took
place before Cole even filed his schedules, Cole explained to the
Trustee he recently had divided his homestead into the two parcels.
That belies any claim that Cole fraudulently misstated that the
Improved Land and Unimproved Land were two parcels.
As for the reason Cole gave for splitting his homestead into two parcels
(i.e., to avoid liability for a water ski course), PRN argues it was

obviously a lie because Cole continued to own both parcels after the
split. And PRN says the alleged false statement was fraudulent because
it was done cover up his attempt to gerrymander his homestead. But, to
repeat, Cole disclosed to the Trustee—even before he filed his
schedules—that he split his homestead into two parcels. The stated
reason for the homestead division is largely irrelevant when Cole
disclosed the recent deeds literally on the day he filed this bankruptcy.
No fraudulent misrepresentations were made.
That leaves Cole’s claim that the State of Florida owned the submerged
Unimproved Land. Judge Jackson considered that very issue at the
trial on PRN’s and the Trustees objections to Cole’s homestead
exemption claim.170 In declining to rule who owned the
Unimproved Land, Judge Jackson observed that the ownership
issue was “both fascinating and complex.” And she noted that both
PRN and Cole presented “reasoned arguments.” Given Judge
Jackson’s observation that Cole presented a reasoned argument on
a complex issue, I cannot conclude Cole fraudulently made a false
oath regarding who owned the Unimproved Land (either at the
homestead exemption trial or the trial in this proceeding).
PRN has failed to prove Cole made any false oath in his bankruptcy
papers that would preclude entry of a discharge. Cole is entitled to
judgment in his favor and against PRN on Count 11.
Id. at 49-51. (emphasis added).
Sincerely,
/s/ James K. Green
Counsel for Petitioner
cc:

Leigh Todd Budgen, Esq.
Jeffrey Scott Elkins, Esq.
Peter H. Levitt, Esq.
Jack C. McElroy, Esq.
James A. Timko, Esq.

